TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                        Problems Persist When Processing
                      Undelivered Lien Notices and Notifying
                           Taxpayers’ Representatives



                                            May 29, 2012

                               Reference Number: 2012-30-057




  This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
   and information determined to be restricted from public release has been redacted from this document.

   Redaction Legend:
   1 = Tax Return/Return Information



Phone Number | 202-622-6500
E-mail Address | TIGTACommunications@tigta.treas.gov
Website        | http://www.tigta.gov
                                                     HIGHLIGHTS


PROBLEMS PERSIST WHEN                                   estimated that 43,817 taxpayers may have been
PROCESSING UNDELIVERED LIEN                             adversely affected because the IRS did not
NOTICES AND NOTIFYING TAXPAYERS’                        follow requirements to notify the taxpayers’
REPRESENTATIVES                                         representatives of the taxpayers’ rights related
                                                        to liens.
                                                        Additionally, when an initial lien notice is
Highlights                                              returned undelivered and a different address is
                                                        available for the taxpayer, the IRS does not
Final Report issued on May 29, 2012                     always meet its statutory requirement to send
                                                        the lien notice to the taxpayer’s last known
Highlights of Reference Number: 2012-30-057             address. From a judgmental sample of
to the Internal Revenue Service Commissioners           250 undelivered lien notices, TIGTA identified
for the Small Business/Self-Employed Division           four cases for which a new lien notice should
and the Wage and Investment Division.                   have been sent to the taxpayer’s updated
                                                        address because IRS systems reflected the
IMPACT ON TAXPAYERS                                     updated address prior to the lien preparation.
After filing Notices of Federal Tax Lien, the IRS       These cases could involve legal violations
must notify the affected taxpayers in writing, at       because the IRS did not meet its statutory
their last known address, within five business          requirement to send lien notices to the
days of the lien filings. However, as noted in          taxpayer’s last known address.
previous audits, the IRS did not always follow          WHAT TIGTA RECOMMENDED
its own internal guidelines for notifying taxpayer
representatives of the filing of lien notices.          TIGTA recommended that the Directors,
Therefore, some taxpayers may have had their            Enterprise Collection Strategy and Campus
rights violated when the IRS did not notify their       Compliance Services, Small Business/
representatives of lien filings.                        Self-Employed Division: 1) work with the
                                                        Director, Compliance, Wage and Investment
WHY TIGTA DID THE AUDIT                                 Division, to improve the controls and oversight
TIGTA is required by law to determine annually          for the processing of undelivered lien notices to
whether lien notices issued by the IRS comply           ensure they are researched timely, and
with the legal guidelines in Internal Revenue           2) ensure the use of undelivered lien notice mail
Code Section 6320 and related guidance in the           status is consistent in the procedures for the
Federal Tax Liens Handbook.                             Automated Collection System and the Collection
                                                        Field function.
WHAT TIGTA FOUND
                                                        The IRS agreed with our recommendations and
TIGTA reviewed a statistically valid sample of          plans to 1) make changes to the respective
105 Notices of Federal Tax Lien (NFTL) filed for        Internal Revenue Manuals to improve
the 12-month period ending June 30, 2011, and           documentation and support the timely resolution
determined that the IRS mailed taxpayers lien           of undeliverable notices, and 2) evaluate the use
notices in a timely manner as required by               of nonstatutory codes against resource
Internal Revenue Code Section 6320.                     demands to determine if implementation is
                                                        feasible. However, in its response the IRS
However, the IRS did not always follow its own          included general comments about taxpayer
regulations for notifying taxpayers’                    rights that TIGTA believes warrant additional
representatives of the filing of the NFTLs. IRS         comment. The IRS’s comments and our
regulations require taxpayer representatives be         response are included in the transmittal
given copies of all correspondence issued to the        memorandum for the final report.
taxpayer. For four (18 percent) of the 22 sample
cases for which the taxpayer had an authorized
representative, the IRS did not notify the
taxpayer’s representative of the NFTL. TIGTA
                                                      DEPARTMENT OF THE TREASURY
                                                         WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                      May 29, 2012


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION
                COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                     (for) Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Problems Persist When Processing Undelivered
                                 Lien Notices and Notifying Taxpayers’ Representatives
                                 (Audit # 201230001)

 This report presents the results of our review to determine whether liens issued by the Internal
 Revenue Service (IRS) comply with legal requirements set forth in Internal Revenue Code
 (I.R.C.) Section (§) 6320 (a)1 and related guidance in the Federal Tax Liens Handbook. The
 Treasury Inspector General for Tax Administration is required by law to determine annually
 whether lien notices issued by the IRS comply with the legal guidelines in I.R.C. § 6320.2 This
 audit is included in our Fiscal Year 2012 Annual Audit Plan and addresses the major
 management challenge of Taxpayer Protection and Rights.
 In their response to the report, IRS management concurred with our outcome measures but
 included some comments and assertions about our report that we believe warrant additional
 comment. We have included portions of management’s response and our related comments
 below.
 Management’s Response: The IRS disagreed that any failure to send a lien notice to taxpayer
 representatives jeopardizes the taxpayers’ rights. In each of the four instances cited for which
 the taxpayer representative was not provided a notice, the lien notice was timely sent to the
 taxpayer, thus affording full rights of appeal.




 1
     26 U.S.C. § 6320(a) (Supp V. 2011).
 2
     26 U.S.C. § 7803(d)(1)(A)(iii) (Supp. V 2011).
                               Problems Persist When Processing Undelivered
                           Lien Notices and Notifying Taxpayers’ Representatives



           Office of Audit Comment: Taxpayers have a right to have representatives notified of a
           lien filing. As stated in the report, Department of the Treasury regulations (§ 601.506)3
           provide that notices are required to be given to recognized taxpayer representatives. We
           identified instances in which the IRS did not send a lien notice to taxpayer
           representatives, thereby resulting in a potential violation of the taxpayers’ right to have an
           authorized representative notified of the filing of a lien.
Management’s Response: The IRS disagreed with the statement that the taxpayers were not
provided a copy of the lien notice because in each of the four cases identified a notice was
subsequently reissued to the more current address for the taxpayer and the right to appeal was
extended accordingly.
           Office of Audit Comment: The IRS did not comply with the statutory requirement of
           providing a lien notice to the taxpayer’s last known address within five business days of
           filing the lien. Furthermore, the IRS did not reissue a lien notice to the four taxpayers’
           more current address until we notified them that the original lien notice was not sent to
           the taxpayers’ last known address.
Management’s complete response to the draft report is included as AppendixVIII.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations.
Please contact me at (202) 622-6510 if you have questions or Margaret E. Begg, Assistant
Inspector General for Audit (Compliance and Enforcement Operations), at (202) 622-8510.




3
    26 C.F.R. § 601.506.
                                                                                                        2
                                 Problems Persist When Processing Undelivered
                             Lien Notices and Notifying Taxpayers’ Representatives




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          Lien Notices Were Mailed Timely ............................................................... Page 4
          The Internal Revenue Service Did Not Comply With
          Regulations for Notifying Taxpayer Representatives ................................... Page 4
          Ineffective Working of Undelivered Lien Notices
          Resulted in Potential Violations of Taxpayers’ Rights ................................. Page 6
                    Recommendations 1 and 2: .............................................. Page 11


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 12
          Appendix II – Major Contributors to This Report ........................................ Page 15
          Appendix III – Report Distribution List ....................................................... Page 16
          Appendix IV – Outcome Measures............................................................... Page 17
          Appendix V – Synopsis of the Internal Revenue Service
          Collection and Notice of Federal Tax Lien Processes .................................. Page 19
          Appendix VI – Internal Revenue Service Computer Systems
          Used in the Mailing of Lien Notices ............................................................. Page 21
          Appendix VII – Statutory Lien Reports Issued During
          Fiscal Years 2007 Through 2011 .................................................................. Page 22
          Appendix VIII – Management’s Response to the Draft Report ................... Page 23
             Problems Persist When Processing Undelivered
         Lien Notices and Notifying Taxpayers’ Representatives




                    Abbreviations

ACS           Automated Collection System
ALS           Automated Lien System
CAF           Centralized Authorization File
FY            Fiscal Year
ICS           Integrated Collection System
IDRS          Integrated Data Retrieval System
I.R.C.        Internal Revenue Code
IRS           Internal Revenue Service

NFTL          Notice of Federal Tax Lien
SB/SE         Small Business/Self-Employed
TIGTA         Treasury Inspector General for Tax Administration
                             Problems Persist When Processing Undelivered
                         Lien Notices and Notifying Taxpayers’ Representatives




                                             Background

The Internal Revenue Service (IRS) attempts to collect Federal taxes due from taxpayers by
sending letters, making telephone calls, and meeting face-to-face with taxpayers. The IRS has
the authority to attach a claim,1 commonly referred to as a Federal Tax Lien, to the taxpayer’s
assets for the amount of unpaid tax when the taxpayer neglects or refuses to pay. The IRS files a
Notice of Federal Tax Lien (NFTL)2 in appropriate local government offices so that interested
parties are notified that a lien exists.
Since January 19, 1999, Internal Revenue Code (I.R.C.) Section (§) 63203 has required the IRS
to notify taxpayers, in writing, within five business days
of the filing of an NFTL. The IRS is required to notify
taxpayers the first time an NFTL is filed for each tax       Upon receiving a lien notice,
period. The lien notice is used for this purpose and
                         4                                   the taxpayer has 30 calendar
                                                               days to request a hearing
advises taxpayers that they have 30 calendar days, after           with IRS Appeals.
that five-day period, to request a hearing with the IRS
Appeals office. The lien notice indicates the date on
which this 30-day period expires.
The law also requires that the lien notice explain, in simple terms, the amount of unpaid tax,
administrative appeals available to the taxpayer, and provisions of the law and procedures
relating to the release of liens on property. The lien notice must be given in person, left at the
taxpayer’s home or business, or sent by certified or registered mail to the taxpayer’s last known
address.5
Most lien notices are mailed to taxpayers by certified or registered mail rather than being
delivered in person. The IRS Automated Lien System (ALS) generates a certified mail list
which identifies each notice that is to be mailed. The notices and a copy of the certified mail list
are delivered to the U.S. Postal Service. A U.S. Postal Service employee ensures that all notices
are accounted for, date stamps the list, and returns a copy to the IRS. The stamped certified mail
list is the only documentation the IRS has that certifies the date on which the notices were
mailed. A synopsis of the IRS collection and NFTL processes is included in Appendix V.
Depending on employee access, NFTL requests can be generated using one of three IRS

1
  26 U.S.C. § 6321 (Supp V. 2011).
2
   IRS Form 668(Y)(c), Notice of Federal Tax Lien (Rev. Oct. 1999), Cat. No. 60025X.
3
  26 U.S.C. § 6320 (Supp V. 2011).
4
  IRS Letter 3172, Notice of Federal Tax Lien Filing and Your Right to a Hearing Under IRC 6320
(Rev. Mar. 2009), Cat. No. 26767I.
5
  The last known address is the one shown on the most recently filed and properly processed tax return, unless the
IRS received notification of a different address.
                                                                                                            Page 1
                               Problems Persist When Processing Undelivered
                           Lien Notices and Notifying Taxpayers’ Representatives



systems: 1) the Integrated Collection System (ICS), 2) the Automated Collection System (ACS),
or 3) the ALS. Appendix VI provides a description of IRS computer systems used in the mailing
of lien notices.
As shown in Figure 1, the IRS has increased the number of NFTLs it has filed to protect the
Federal Government’s interest by 52 percent since Fiscal Year (FY) 2007.
                     Figure 1: Number of NFTLs Filed From FYs 2007–2011




             Source: IRS Data Books published in FYs 2007 through 2011.

The Treasury Inspector General for Tax Administration (TIGTA) is required to determine
annually whether, when filing NFTLs, the IRS complied with the law regarding the notifications
of affected taxpayers and their representatives.6 This is our fourteenth annual audit to determine
whether the IRS complied with the legal requirements of I.R.C. § 6320 and its own related
internal guidelines for mailing lien notices. In prior years, we reported that the IRS had not yet
achieved full compliance with the law and its own internal guidelines. As repeat findings, we
identified potential violations of taxpayers’ rights because the IRS did not timely notify their
representatives. In addition, our review of a judgmental sample of undelivered lien notices found
potential violations of taxpayer rights when the IRS did not use the taxpayer’s last known
address.




6
    26 U.S.C. § 7803(d)(1)(A)(iii) (Supp. V 2011).
                                                                                           Page 2
                                 Problems Persist When Processing Undelivered
                             Lien Notices and Notifying Taxpayers’ Representatives



Figure 2 shows the percentages of potential violations of taxpayer rights we identified during our
prior annual audits.
     Figure 2: Potential Violations of Taxpayer Rights Based on Timely Notification




Source: TIGTA statutory lien reports issued during FYs 2007–2011.7

This review was performed at the Small Business/Self-Employed (SB/SE) Division Office of
Collection Policy in New Carrollton, Maryland, and the Centralized Case Processing – Lien Unit
and the ACS Support function in Covington, Kentucky, and the Wage and Investment Division
ACS Support function in Fresno, California, during the period September 2011 through
January 2012. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




7
    See Appendix VII for a list of prior reports.
                                                                                           Page 3
                             Problems Persist When Processing Undelivered
                         Lien Notices and Notifying Taxpayers’ Representatives




                                      Results of Review

Lien Notices Were Mailed Timely
I.R.C. § 6320 requires the IRS to notify taxpayers in writing, at their last known address,8 within
five business days of the filing of an NFTL. We randomly sampled 105 NFTLs from the
1,150,049 NFTLs filed between July 1, 2010, and June 30, 2011. For all 105 cases, the IRS
timely and correctly mailed lien notices as required. We determined that the law was complied
with by confirming the mail date using the proof of mailing. Proof of mailing consists of
certified mail lists showing a U.S. Postal Service date stamp. The certified mail list is produced
by the ALS along with the taxpayer notice and stamped by the U.S. Postal Service with the date
of mailing. The certified mail list is then forwarded to the Centralized Case Processing – Lien
Unit for record keeping.

The Internal Revenue Service Did Not Comply With Regulations for
Notifying Taxpayer Representatives
Taxpayer representative information is contained on the Centralized Authorization File (CAF)9
that is located on the Integrated Data Retrieval System (IDRS).10 Using the IDRS, employees
can research the CAF to identify the types of authorization given to taxpayer representatives.
Department of the Treasury regulations (§ 601.506)11 provide that notices are to be given to
recognized taxpayer representatives. Specifically, any notice or other written communication
(or a copy thereof) required or permitted to be given to a taxpayer in any matter before the IRS
must be given to the taxpayer and, unless restricted by the taxpayer, to the representative.
Accordingly, IRS procedures require the requestor of a lien to ensure he or she notifies the
Centralized Case Processing – Lien Unit of all powers of attorney and co-obligors that are to be
notified. More specifically, IRS procedures require that a copy of the notice be sent to the
taxpayer’s representative no later than five business days after the notice is sent to the taxpayer
when an NFTL is filed.



8
  26 U.S.C. § 6320 (Supp V. 2011) also allows the IRS to provide written notice in person or left at the taxpayer’s
usual place of business.
9
  The CAF contains information about the type of authorizations taxpayers have given their representatives for their
tax returns.
10
   IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
11
   26 C.F.R. § 601.506.
                                                                                                             Page 4
                             Problems Persist When Processing Undelivered
                         Lien Notices and Notifying Taxpayers’ Representatives



Our review of the random sample of 105 liens included 22 taxpayers with representatives
authorized to receive notifications at the time the liens were filed. For four (18 percent) of the
22 taxpayers, ALS records did not indicate that the IRS had sent copies of the lien notices to
their representatives. Specifically:
        Three of the four liens were initiated by revenue officers12 using the ICS, but the revenue
         officers did not ensure that the power of attorney information available on the ICS and
         the IDRS was sent to the ALS before the notices were mailed to the taxpayers.

      ***************************************1***********13***************
         ***************************1**************************************.
We project14 that 43,817 taxpayers may have been adversely affected because the IRS did not
follow requirements to notify the taxpayers’ representatives of the taxpayers’ rights related to
liens. We are 95 percent confident that the range of potential violations is between 11,961 and
108,910. In addition to this year’s results, Figure 3 shows the error rates reported on the
notification of taxpayer representatives in our last five reports.
     Figure 3: Error Rates Reported on Notification of Taxpayer Representatives
                      Sampled Lien Cases      Sampled Lien Cases Not
                   Requiring Representative   Receiving Representative   Error
     Report FY           Notification               Notification         Rate
        2007                  25                         15               60%
        2008                  30                         12               40%
        2009                  27                         8                30%
        2010                  31                         8                26%
        2011                  30                         4                13%
        2012                  22                         4                18%
 Source: Prior and current year results of TIGTA tests of taxpayer representative notification.

While the error rate has been reduced from 60 percent in our FY 2007 report to 18 percent in our
FY 2012 report, the potential for violations still exists in cases requiring taxpayer representative
notification.
In our FY 2009 statutory lien report, we recommended that the IRS enhance its systems by
establishing a systemic upload of CAF data to the ALS to ensure taxpayer representatives timely

12
   Employees in the Collection Field function who attempt to contact taxpayers and resolve collection matters that
have not been resolved through notices sent by the IRS campuses or the ACS. Campuses are the data processing
arm of the IRS. The campuses process paper and electronic submissions, correct errors, and forward data to the
Computing Centers for analysis and posting to taxpayer accounts.
13
   The Advisory Unit provides technical guidance to revenue officers regarding liens, levies, and litigation.
14
   Two-sided 95 percent confidence interval projection using the exact Binomial method.
                                                                                                            Page 5
                              Problems Persist When Processing Undelivered
                          Lien Notices and Notifying Taxpayers’ Representatives



received lien notices. However, the implementation of the IRS corrective action15 was
indefinitely delayed. Therefore, on December 29, 2011, the Director, Collection Policy,
SB/SE Division, submitted a request to have the implementation of the corrective action
rescheduled. Because these corrective actions may be scheduled to occur before the FY 2013
sample selection, this process will be evaluated during next year’s statutory review.

Ineffective Working of Undelivered Lien Notices Resulted in Potential
Violations of Taxpayers’ Rights
IRS procedures require that employees send another lien notice to a new address if: 1) the
originally mailed notice is returned as undelivered mail, 2) research confirms the original lien
notice was not sent to the last known address, and 3) the new address was effective prior to or
during the same cycle16 the NFTL was prepared that caused the lien notice to be issued.
Collection function employees are responsible for certain actions when notices are returned as
undelivered. For example, ACS Support function employees are required to research the IDRS
within 14 calendar days of receipt to ensure that the address on the original lien notice is correct.
If the employee cannot find a new address on the computer system, the undelivered lien notice
will be destroyed and a new notice is not issued.
If the address on the notice is not the last known address and a different address was in effect
prior to preparation of the original lien notice, employees should issue a new notice to the new
address. A new notice is created by using an option in the ALS.
We selected a judgmental sample17 of 250 undelivered lien notices returned to the Cincinnati
(125 lien notices) and Fresno (125 lien notices) Campuses in October 2011. The sample
included only returned lien notices identified as undelivered and did not include returned mail
identified as refused or unclaimed. We selected the Cincinnati and Fresno Campuses because
the lien notices issued by the SB/SE and Wage and Investment Divisions’ ACS sites returned as
undelivered are sent to these locations. This sample provided a sufficient volume to evaluate the
procedures.
IRS procedures require address verification and, if applicable, resolution (request to have the
lien notice reissued) of undelivered lien notices within 14 calendar days of receipt. For these
250 notices, we reviewed computer system audit trails to assess whether IRS employees
performed timely research to determine whether the addresses were correct on the originally
mailed notices. Figure 4 shows how the 250 returned notices were handled by employees.


15
   The IRS corrective action included a tool within the ALS to verify taxpayer representative information on the
CAF prior to printing the lien notice.
16
   Cycle refers to the IRS method of documenting dates (i.e., Processing Cycle 201102 is the second week of
January 2011).
17
   A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
                                                                                                              Page 6
                             Problems Persist When Processing Undelivered
                         Lien Notices and Notifying Taxpayers’ Representatives



Figure 4: Timeliness of Employee Research of Sampled Undelivered Lien Notices




            Source: TIGTA analysis of sampled undelivered lien notices.

Our test of undelivered lien notices identified 15 of 250 lien notices for which the address on the
IRS computer system and the original lien notice did not agree. For 11 (73 percent) of the
15 notices, the address on the IRS computer system was updated after the original lien notice
was sent to the taxpayer. Therefore, no additional action was required. However, for four
(27 percent) of the 15 notices, the address was updated prior to the cycle the NFTL was prepared
in the ALS. According to IRS procedures, employees are required to send the taxpayer a new
lien notice using the updated address. However, the IRS did not send notices to the four updated
addresses.18 The four notices not reissued could involve potential violations of taxpayer rights
because the IRS did not meet its statutory requirement of sending each lien notice to the
taxpayer’s last known address. For example, in a case filed in March 2010, the U.S. Tax Court19
found that an IRS lien notice was invalid because it was not mailed to the individual’s last
known address.
Lien notices are not sent to the most current addresses because, in part, employees are not always
following established procedures for verifying the current address of the taxpayer prior to
preparing a lien request. Also, the ALS does not currently perform an automated verification of
the taxpayer’s last known address prior to printing the lien notice. In our FY 2009 statutory lien


18
   IRS reissued the notices to the four taxpayers after we brought this observation to their attention.
19
   Roberts v Comm'r, T.C. Summ.Op. 2010-21. The U.S. Tax Court found that the lien notice issued with respect to
a taxpayer’s 2002 tax return was not mailed to the taxpayer's last known address, nor was it received and, therefore,
it is invalid. Consequently, the IRS is required, under the provisions of § 6320 and the accompanying regulations, to
issue to the taxpayer a substitute lien notice and provide him or her with an opportunity to request a lien hearing.
                                                                                                             Page 7
                         Problems Persist When Processing Undelivered
                     Lien Notices and Notifying Taxpayers’ Representatives



report, we recommended that the IRS enhance its systems by establishing an automated check of
a taxpayer’s last known address prior to the printing of lien notices. However, the
implementation of this enhancement was indefinitely delayed. Therefore, on December 29,
2011, the Director, Collection Policy, SB/SE Division, submitted a request to have the
implementation of the enhancement rescheduled. Because these corrective actions may be
scheduled to occur before the FY 2013 sample selection, this process will be evaluated during
next year’s statutory review.
In addition, IRS management indicated that the routing of the undelivered lien notices could
have contributed to the untimely research of the undelivered mail. Specifically, all returned mail
received at the Cincinnati and Fresno Campuses is extracted and sorted by mail type in their
respective mail rooms. The undelivered lien notices are routed to the ACS Support functions
that are located in different buildings. ACS Support function employees then perform the
research on IRS computer systems to identify the last known addresses. We allowed three
additional calendar days for the undelivered lien notices to be routed from the campus mailroom
to the ACS Support functions. We were advised that, in some instances, it takes longer than
three calendar days for the undelivered mail to be received in the ACS Support functions.
Notably, after we reported this issue in last year’s report, IRS increased the number of days in
which research should be completed, from within seven calendar days to within 14 calendar
days. In addition, ACS Support function management does not consider the time spent routing
mail as part of the 14 calendar days in which the research is required to be completed.
Specifically, ACS Support function management believes research is timely if it is performed
within 14 calendar days of the time the notice is received by the ACS Support functions, not the
date on which it was received by the IRS. Furthermore, the IRS does not track the amount of
time it takes to internally route undelivered lien notices, so it is uncertain what is causing the
delays.
The requirement to research undelivered mail timely (now within 14 calendar days) is
presumably to ensure taxpayers do not experience burdensome delays, particularly when they
have provided the IRS with proper notice of an address change. However, IRS procedures
appear to focus on processing times within each function instead of the overall amount of time
expended from the taxpayer’s perspective. When the IRS does not research the taxpayer’s
address timely, it makes little difference to the taxpayer if the IRS delays occurred in the
mailroom or in the ACS Support functions.




                                                                                            Page 8
                         Problems Persist When Processing Undelivered
                     Lien Notices and Notifying Taxpayers’ Representatives



Employees are still not following procedures designed to monitor undelivered
lien notices
In August 2007, procedures for handling undelivered lien notices were revised to return the
undelivered lien notice directly to the requesting employee or function. The IRS procedures for
Federal Tax Liens were also revised to require employees handling undelivered lien notices to
input a specific IDRS transaction code with an appropriate action code. The transaction code
signifies that the lien notice was returned and the action code indicates the reason
(i.e., undelivered, unclaimed, or refused). The IRS procedures for Federal Tax Liens require
these codes to be entered into the IDRS after appropriate research of the returned lien notice is
performed to record the mail status of the lien notices. On December 22, 2011, the Director,
Collection Policy, SB/SE Division, issued interim guidance that emphasized the requirement for
Collection Field function employees to input this specific IDRS transaction code with the
appropriate action code to reflect the status of the returned lien notice.
In August 2009, the ALS was enhanced to perform a weekly systemic extract to send the
appropriate undeliverable status (transaction code and action code) of lien notices to the IDRS
using a specific command in ALS. When this command is used to update the status of the lien
notice, no additional input is necessary to update the IDRS. When a lien notice is returned
undelivered and research has been completed regarding an updated address, the employee can
request the lien notice screen on ALS be updated with the undelivered status or go to the lien
notice screen themselves and indicate undelivered status.
Our test of undelivered lien notices determined that the IRS is still not complying with this
procedure of updating the undelivered status. None of the 250 undelivered lien notices that we
sampled had a transaction code or associated action code input to the IDRS. For our sample, the
ALS was not updated with the status of the undelivered lien notices and, therefore, the upload to
the IDRS (via the ALS) did not occur. As a result, there is no record of the mail status of these
lien notices. Management advised us that the requirements to enter these codes do not apply to
the ACS. However, the ACS Support function has been designated by the SB/SE and Wage and
Investment Divisions to receive all undelivered lien notices that were filed by the ACS since the
address verification process was decentralized in August 2007. Accordingly, the IRS procedures
for Federal Tax Liens provide that the person designated the responsibility of processing
undelivered lien notices will also check the IDRS for a last known address and request the input
of the transaction code with the appropriate action code or the command code enhancement via
the ALS.
Because the ACS Support function was not following the IRS procedures for Federal Tax Liens,
we recommended, in our FY 2011 statutory lien report, that Collection and Campus Compliance
Services, SB/SE Division, and Compliance, Wage and Investment Division, ensure the
procedures that address the handling of undelivered lien notices are consistent and include the
same requirements for timely research of undelivered notices and when a new notice should be
sent. Management agreed to reevaluate procedures to ensure they are consistent across the

                                                                                           Page 9
                             Problems Persist When Processing Undelivered
                         Lien Notices and Notifying Taxpayers’ Representatives



functions and support the timely resolution of undelivered notices. While some changes were
made, the procedures pertaining to the campus were not changed to include the requirement to
input the specific transaction code and the applicable action code.
Compliance with these procedures is important because it allows management to review the
handling of undelivered lien notices. Undelivered lien notices are being sent back to more than
450 Collection Field function groups throughout the country where the employees or functions
that requested the liens are located. The combination of decentralizing the handling of
undelivered lien notices and the failure of employees to update taxpayers’ data in the IDRS has
not provided management with the information needed to ensure and enforce the timely
resolution of undelivered lien notices. Figure 5 shows this situation has contributed to the
number of undelivered lien notices that were not researched timely over the past five years.
               Figure 5: Error Rates Reported on Undelivered Lien Notices
                               Sampled                Sampled Undelivered
                            Undelivered Lien          Lien Notices Untimely
      Report FY                 Notices                    Researched                      Error Rate
        2008                      400                          133                            33%
        2009                      283                          234                            83%
        2010                      300                          252                            84%
        2011                      250                          204                            82%
        2012*                     250                          194                            78%
 Source: Prior and current year results of the TIGTA’s tests of undelivered lien notices
 *The IRS changed the definition of timely from within seven calendar days to within 14 calendar days of receipt for
 undelivered liens reviewed for our FY 2012 report.

Cases sampled for our FY 2008 report were selected prior to the decentralization. The cases
sampled for our FY 2009 report were selected after decentralization, when the error rate
increased from 33 percent to 83 percent. It has remained near 80 percent since that time.
Further, because employees are not following the procedures to enter the undelivered notice
status into the IDRS via transaction and action codes, the information about the undelivered
notice is limited to only those employees working the undelivered mail. IRS management,
including Accounts Management organization20 employees and Centralized Case Processing –
Lien Unit employees who have access to the ALS, do not have access to information on




20
  The Accounts Management organization is responsible for providing taxpayers with information on the status of
their returns and refunds and for resolving the majority of issues and questions to settle their accounts.
                                                                                                          Page 10
                             Problems Persist When Processing Undelivered
                         Lien Notices and Notifying Taxpayers’ Representatives



undelivered lien notices. As a result, Taxpayer Assistance Center21 employees would be unable
to answer taxpayer questions about these Federal Tax Liens.

Recommendations
Recommendation 1: The Directors, Enterprise Collection Strategy and Campus Compliance
Services, SB/SE Division, and the Director, Compliance, Wage and Investment Division, should
improve the controls and oversight over the processing of undelivered lien notices to ensure they
are researched timely.
        Management’s Response: IRS management agreed with this recommendation. The
        IRS will make changes to the respective Internal Revenue Manuals to provide guidance
        for improved documentation and support the timely resolution of undeliverable notices.
        Office of Audit Comment: In their response, the IRS disagreed with the statement
        that the taxpayers were not provided a copy of the lien notice because in each of the four
        cases identified, a notice was subsequently reissued to the more current address for the
        taxpayer and the taxpayers’ appeal rights were extended. However, the IRS did not
        comply with the statutory requirement of providing a lien notice to the taxpayer’s last
        known address within five business days of filing the lien. Furthermore, the IRS did not
        reissue a lien notice to the four taxpayers’ more current address until we notified them
        that the original lien notice was not sent to the taxpayers’ last known address.
Recommendation 2: The Directors, Enterprise Collection Strategy and Campus Compliance
Services, SB/SE Division, should ensure the use of undelivered lien notice mail status is
consistent in the procedures for the ACS and the Collection Field function.
        Management’s Response: IRS management agreed with this recommendation. The
        use of the status codes for all functions will be evaluated against resource demands to
        determine if implementation of the nonstatutory codes across all functions is feasible.




21
  IRS offices with employees who answer questions, provide assistance, and resolve account-related issues for
taxpayers face to face.
                                                                                                         Page 11
                             Problems Persist When Processing Undelivered
                         Lien Notices and Notifying Taxpayers’ Representatives



                                                                                                   Appendix I

          Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether liens issued by the IRS comply with legal
guidelines set forth in I.R.C. Section (§) 6320 (a)1 and related guidance in the Federal Tax Liens
Handbook. To accomplish the objective, we:
I.       Determined whether taxpayer lien notices related to 105 Federal Tax Liens filed by the
         IRS complied with legal requirements set forth in I.R.C. § 6320 (a) and related internal
         guidelines.
         A. Selected a random sample of 105 Federal Tax Lien cases from the ALS2 extract of the
            1,150,049 liens filed by the IRS nationwide between July 1, 2010, and June 30, 2011.
            We selected a random sample because we wanted to project the number of cases with
            errors. We used the formula below to calculate the minimum sample size, which we
            rounded to 105:
              Population:                               1,150,049
              Confidence Level:                         95 percent
              Expected Rate of Occurrence:               2 percent3
              Precision Rate:                           ±3 percent
         B. Validated the ALS extract by comparing the sampled records to online data.
         C. Determined whether the sampled liens adhered to legal guidelines regarding timely
            notifications of lien filings to the taxpayer, the taxpayer’s spouse, or business partners
            by reviewing data from the ALS and the certified mail list.
         D. Evaluated the controls and procedures established for transferring, storing, and
            safeguarding certified mail lists at the Centralized Case Processing – Lien Unit.
         E. Determined whether taxpayers’ representatives were provided a copy of the lien due
            process notice by reviewing data from the ALS, IDRS, ICS, and ACS.
             1. Reviewed IDRS screens for CAF indicators for all sampled cases.




1
  26 U.S.C. § 6320 (Supp V. 2011).
2
  See Appendix VI for descriptions of IRS computer systems used in the filing of Notices of Federal Tax Lien.
3
  Expected rate of occurrence based on error rates in prior years – no errors in FY 2009, 2 percent in FY 2010, and
1 percent in FY 2011.
                                                                                                            Page 12
                             Problems Persist When Processing Undelivered
                         Lien Notices and Notifying Taxpayers’ Representatives



             2. Reviewed ALS history screens for accounts with CAF indicators to see if lien
                notices were mailed to taxpayers’ representatives within five business days of
                mailing the taxpayers’ notices.
        F. Reviewed the ACS and the ICS for taxpayer representative/power of attorney
           indicators and matched tax periods to ensure that all taxpayer representatives/powers
           of attorney listed on the ACS and the ICS were provided notification per the ALS.
        G. Provided all exception cases to the Office of Collection Policy, SB/SE Division, for
           agreement to potential violations and corrective actions if appropriate.
II.     Evaluated the procedures for processing lien notices4 that are returned undelivered.
        A. Selected a judgmental sample5 of 250 unprocessed (unopened) and recently processed
           (opened) mail containing undelivered lien notices received during October 2011 in
           the Cincinnati (125) and Fresno (125) Campuses6 and recorded the taxpayer’s name,
           address, Social Security Number, and serial lien identification number. We used a
           judgmental sample because we could not determine the population of undelivered lien
           notices at these two campuses.
        B. For each sampled case:
             1. Researched IDRS Master File (Command Codes INOLE, IMFOL, and BMFOL)
                and determined if the address on the Master File7 matched the address on the
                undelivered lien notice for each sampled case.
             2. Reviewed taxpayer audit trails to determine whether lien employees performed
                the required IDRS research during creation of the lien.
             3. Reviewed IDRS taxpayer audit trails to determine whether employees performed
                the required IDRS research for resolution of the undelivered lien notices within
                14 calendar days of receipt.
                 a. If appropriate research was completed for resolution of the undelivered lien
                    notices, verified the appropriate transaction code and action code was entered
                    into the IDRS.




4
  IRS Letter 3172, Notice of Federal Tax Lien Filing and Your Right to a Hearing Under IRC 6320
(Rev. Mar. 2009), Cat. No. 26767I.
5
  A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
6
  Campuses are the data processing arm of the IRS. The campuses process paper and electronic submissions, correct
errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
7
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
                                                                                                         Page 13
                         Problems Persist When Processing Undelivered
                     Lien Notices and Notifying Taxpayers’ Representatives



III.   Determined if IRS internal guidelines have been modified since our last review by
       discussing procedures and controls with appropriate IRS personnel in SB/SE Division
       Collection Policy function.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the SB/SE Division Collection function’s
policies, procedures, and practices for timely notifying taxpayers of lien filings and timely
verifying addresses of undelivered lien notices. We evaluated these controls by interviewing
management and reviewing samples of lien notices sent to taxpayers and lien notices returned to
the IRS as undelivered.




                                                                                         Page 14
                        Problems Persist When Processing Undelivered
                    Lien Notices and Notifying Taxpayers’ Representatives



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Carl Aley, Director
Timothy Greiner, Audit Manager
Michael J. Della Ripa, Lead Auditor
Steven Stephens, Senior Auditor
Stephen Elix, Auditor
Frank Maletta, Auditor
Kevin O’ Gallagher, Information Technology Specialist
Joseph L. Katz, Ph.D., Contractor, Statistical Sampling Consultant




                                                                                      Page 15
                        Problems Persist When Processing Undelivered
                    Lien Notices and Notifying Taxpayers’ Representatives



                                                                           Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Campus Compliance Services SE:S:CCS
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Enterprise Collection Strategy SE:S:ESC
Director, Collection Policy, Small Business/Self-Employed Division SE:S:C:CP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W




                                                                                 Page 16
                            Problems Persist When Processing Undelivered
                        Lien Notices and Notifying Taxpayers’ Representatives



                                                                                           Appendix IV

                                   Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
       Taxpayer Rights and Entitlements – Potential; 43,817 taxpayers whose representatives
        may not have been provided Letters 3172, Notice of Federal Tax Lien Filing and Your
        Right to a Hearing Under IRC 6320,1 resulting in potential violations of taxpayers’ rights
        (see page 4).

Methodology Used to Measure the Reported Benefit:
From a random sample of 105 NFTL cases, we identified 22 cases with taxpayer representatives
authorized to receive notifications at the time the NFTLs were filed. From those 22 cases, we
identified four (18 percent) cases for which IRS employees did not provide lien notices to
taxpayer representatives, resulting in potential violations of taxpayers’ rights. The sample was
selected based on a confidence level of 95 percent, a precision rate of ±3 percent, and an
expected rate of occurrence of 2 percent.
       Error rate = Four cases out of 105 (3.81 percent) in which the taxpayer representative was
        not provided Letter 3172
       Population = 1,150,049 NFTLs generated by the ALS between July 1, 2010, and
        June 30, 2011.
       Projection = 1,150,049 X 3.81 percent = 43,817 taxpayers whose representatives may not
        have been provided Letters 3172.

Type and Value of Outcome Measure:
       Taxpayer Rights and Entitlements – Actual; four taxpayers were not provided a
        Letter 3172, resulting in potential legal violations of taxpayers’ rights (see page 6).




1
 IRS Letter 3172, Notice of Federal Tax Lien Filing and Your Right to a Hearing Under IRC 6320
(Rev. Mar. 2009), Cat. No. 26767I.
                                                                                                 Page 17
                         Problems Persist When Processing Undelivered
                     Lien Notices and Notifying Taxpayers’ Representatives



Methodology Used to Measure the Reported Benefit:
In a judgmental sample of 250 undelivered lien notices, we determined that the IRS did not send
lien notices to the updated addresses of four taxpayers. The four lien notices not sent to the
updated addresses could involve potential violations of taxpayer rights because the IRS did not
meet its statutory requirement of sending each lien notice to the taxpayer’s last known address.




                                                                                         Page 18
                             Problems Persist When Processing Undelivered
                         Lien Notices and Notifying Taxpayers’ Representatives



                                                                                                Appendix V

          Synopsis of the Internal Revenue Service
    Collection and Notice of Federal Tax Lien Processes

The collection of unpaid tax begins with a series of letters (notices) sent to the taxpayer advising
of the debt and asking for payment of the delinquent tax. IRS computer systems are
programmed to mail these notices when certain criteria are met. If the taxpayer does not respond
to these notices, the account is transferred for either personal or telephone contact.
        IRS employees who make personal (face-to-face) contact with taxpayers are called
         revenue officers and work in various locations. The ICS1 is used in most of these
         locations to track collection actions taken on taxpayer accounts.
        IRS employees who make only telephone contact with taxpayers work in call sites. The
         ACS is used in the call sites to track collection actions taken on taxpayer accounts.
When these efforts have been taken and the taxpayer has not paid the tax liability, designated
IRS employees are authorized to file a lien by sending an NFTL2 to appropriate local government
offices. Liens protect the Federal Government’s interest by attaching a claim to the taxpayer’s
assets for the amount of unpaid tax. The right to file an NFTL is created by I.R.C. Section 6321
when:
        The IRS has made an assessment and given the taxpayer notice of the assessment, stating
         the amount of the tax liability and demanding payment.
        The taxpayer has neglected or refused to pay the amount after the notice and demand for
         payment.
When designated employees request the filing of an NFTL using either the ICS or the ACS, the
ALS processes the NFTL filing requests from both systems. In an expedited situation,
employees can manually prepare the NFTL. Even for manually prepared liens, the ALS controls
and tracks the liens and initiates subsequent lien notices3 to notify responsible parties of the lien
filings and of their appeal rights. The ALS maintains an electronic database of all open NFTLs
and updates the IRS’s primary computer records to indicate that an NFTL has been filed.


1
  See Appendix VI for detailed descriptions of IRS computer systems used in the filing of Notices of Federal Tax
Lien.
2
  IRS Form 668(Y)(c), Notice of Federal Tax Lien (Rev. Oct. 1999), Cat. No. 60025X.
3
  IRS Letter 3172, Notice of Federal Tax Lien Filing and Your Right to a Hearing Under IRC 6320
(Rev. Mar. 2009), Cat. No. 26767I.
                                                                                                          Page 19
                          Problems Persist When Processing Undelivered
                      Lien Notices and Notifying Taxpayers’ Representatives



Most lien notices are mailed to taxpayers by certified or registered mail, rather than delivered in
person. To maintain a record of the notices, the IRS prepares a certified mail list (U.S. Postal
Service Form 3877), which identifies each notice that is to be mailed. The notices and a copy of
the certified mail list are delivered to the U.S. Postal Service. A U.S. Postal Service employee
ensures that all notices are accounted for, date stamps the list, and returns a copy to the IRS. The
stamped certified mail list is the only documentation the IRS has that certifies the date on which
the notices were mailed. IRS guidelines require that the stamped certified mail list be retained
for 10 years after the end of the processing year.




                                                                                            Page 20
                            Problems Persist When Processing Undelivered
                        Lien Notices and Notifying Taxpayers’ Representatives



                                                                                             Appendix VI

         Internal Revenue Service Computer Systems
              Used in the Mailing of Lien Notices

Automated Collection System (ACS) is a computerized call site inventory system that
maintains balance-due accounts and return delinquency investigations. ACS function employees
enter all of their case file information (online) on the ACS. Lien notices requested using the
ACS are uploaded to the ALS, which generates the Notices of Federal Tax Lien1 and related lien
notices and updates the IRS’s primary computer files to indicate that Notices of Federal Tax Lien
have been filed.
Automated Lien System (ALS) is a comprehensive database that prints Notices of Federal Tax
Lien and lien notices, stores taxpayer information, and documents all lien activity. Lien
activities on both ACS and ICS cases are controlled on the ALS by Technical Support or Case
Processing functions at the Cincinnati, Ohio, Campus.2 Employees at the Cincinnati Campus
process Notices of Federal Tax Lien and lien notices and respond to taxpayer inquiries using the
ALS.
Integrated Collection System (ICS) is an IRS computer system with applications designed
around each of the main collection tasks such as opening a case, assigning a case, building a
case, performing collection activity, and closing a case. The ICS is designed to provide
management information, create and maintain case histories, generate documents, and allow
online approval of case actions. Lien requests made using the ICS are uploaded to the ALS. The
ALS generates the Notices of Federal Tax Lien and related lien notices and updates the IRS’s
primary computer files to indicate Notices of Federal Tax Lien have been filed.
Integrated Data Retrieval System (IDRS) is an online data retrieval and data entry system that
processes transactions entered from terminals located in campuses and other IRS locations. It
enables employees to perform such tasks as researching account information, requesting tax
returns, entering collection information, and generating collection documents. The IDRS serves
as a link from campuses and other IRS locations to the Master File3 for the IRS to maintain
accurate records of activity on taxpayers’ accounts.



1
  IRS Form 668(Y)(c), Notice of Federal Tax Lien (Rev. Oct. 1999), Cat. No. 60025X.
2
  Campuses are the data processing arm of the IRS. The campuses process paper and electronic submissions, correct
errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
3
  The Master File is the IRS database that stores various types of taxpayer account information. This database
includes individual, business, and employee plans and exempt organizations data.
                                                                                                        Page 21
                        Problems Persist When Processing Undelivered
                    Lien Notices and Notifying Taxpayers’ Representatives



                                                                           Appendix VII

              Statutory Lien Reports Issued During
                Fiscal Years 2007 Through 2011

TIGTA, Ref. No. 2007-30-051, Fiscal Year 2007 Statutory Review of Compliance With Lien Due
Process Procedures (Mar. 2007).
TIGTA, Ref. No. 2008-30-082, Fiscal Year 2008 Statutory Review of Compliance With Lien Due
Process Procedures (Mar. 2008).
TIGTA, Ref. No. 2009-30-089, Additional Actions Are Needed to Protect Taxpayers’ Rights
During the Lien Due Process (Jun. 2009).
TIGTA, Ref. No. 2010-30-072, Actions Are Needed to Protect Taxpayers’ Rights During the
Lien Due Process (Jul. 2010).
TIGTA, Ref. No. 2011-30-051, Challenges Remain When Processing Undeliverable Mail and
Preventing Violations of Taxpayers’ Rights During the Lien Due Process (May 2011).




                                                                                    Page 22
          Problems Persist When Processing Undelivered
      Lien Notices and Notifying Taxpayers’ Representatives



                                                  Appendix VIII

Management’s Response to the Draft Report




                                                          Page 23
    Problems Persist When Processing Undelivered
Lien Notices and Notifying Taxpayers’ Representatives




                                                    Page 24
    Problems Persist When Processing Undelivered
Lien Notices and Notifying Taxpayers’ Representatives




                                                    Page 25
